November 23, 2010

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Information Technology Contract Payment Oversight
        (Report Number CA-AR-11-001)

This report presents the results of our audit of information technology (IT) contract
oversight (Project Number 09YG043CA000). This self-initiated audit addresses
operational risk. Our overall objective was to evaluate the adequacy of oversight for IT
contract payments. Specifically, we determined if contracting officers (COs) issued
letters to contracting officer’s representatives (CORs) detailing their responsibilities and
limitations and if invoices were properly certified. We also reviewed the invoice approval
process to determine if the CORs reconciled invoices to receiving documents before
certifying the invoices for payment. Additionally, we determined if the Postal Service
collected interest on advance payments for software maintenance contracts. See
Appendix A for additional information about this audit.

For fiscal years (FY) 2008 and 2009, the Postal Service paid approximately $592 million
for 654 IT retail and hardware contracts. Supply Management’s IT Category
Management Center (CMC) is responsible for creating and maintaining contracts for IT
retail, hardware, and software systems. The CO is ultimately responsible for assuring
that the Postal Service has received any goods and services contracted for and that
invoices are correct before the Postal Service pays them.

The standard practice the federal government uses to ensure that contract terms are
met is certification of vendor invoices prior to payment. Postal Service policy allows the
CO to delegate this role to a COR, through a formal letter of designation that defines the
CORs duties and responsibilities,1 which includes verifying invoices upon receipt and
certifying invoices for payment. COR duties also include performing and documenting
the acceptance of delivered goods. CORs generally also have expert knowledge of the
terms of the contract to which they have been assigned. However, the CO maintains
responsibility for ensuring proper invoice review before payment.




1
  Management Instruction (MI) PM-610-2001-1, Contracting Officer's Representative Program, dated April 3, 2001,
states that COs may appoint a COR through a letter of designation that details their responsibilities and limitations.
Information Technology Contract Payment Oversight                                             CA-AR-11-001




Conclusion

Postal Service’s officials must improve the oversight of IT contract payments to ensure
that invoices are certified by designated COs or CORs and the COs and CORs
reconcile the invoices to receiving documents prior to certification. We determined that
COs issued letters of designation to CORs detailing their responsibilities and limitations.
CORs also generally have expert knowledge of the contract to which they are
designated. As such, the COR performs an important CO duty that has been delegated
specifically to them. To ensure they can adequately perform this duty, the COR has
been given training, specific information on the contract itself and instruction from the
CO.

However, the COR’s invoice certification responsibilities were improperly transferred to
Postal Service personnel who did not have letters of designation allowing them to certify
invoices for payment. Also, COs did not always appoint CORs, so those without COR
letters of designation, training, or specific knowledge of the contract were certifying
invoices for payment, In addition, these employees usually did not reconcile invoices to
receiving documents prior to certifying invoices. As a result, the controls ensuring
appropriate certification were significantly weakened.

Lack of COR Letters of Designation and Invoice Certification

We reviewed a statistical sample of 255 IT retail and hardware invoices valued at
$49,958,851 for FYs 2008 and 2009 and found that 219 of them (86 percent) were not
properly certified by a COR. Additionally, only nine invoices were reconciled to receiving
documents prior to certification for payment. This occurred because COR letters were
not issued to the proper personnel. Specifically, certifications for IT hardware invoices
were centralized under IT Value2 and IT Value personnel were not designated as
CORs. In addition, COs did not appoint CORs for IT hardware purchase orders viewed
as small, non-complex, and low-risk; and there were misunderstandings regarding
CORs’ responsibilities for IT retail invoices. Thus, the individuals certifying the invoices
did not have the necessary knowledge of the contract to ensure terms were met before
payment was made. It is important that either COs or properly trained CORs certify
invoices and that they reconcile invoices to receiving documents to ensure that the
purchases comply with the terms and conditions of the contract.

Based on our sample results, we statistically project that there were $192,692,060 in
improperly certified invoices that we classify as unrecoverable unsupported questioned
costs. These costs are questioned because the invoices did not contain the required
approvals prescribed by Postal Service policy. These amounts are not necessarily

2
 IT Value practices shared services and supports the internal activities (financial management, resources
management, portfolio management, and business investments) that are consolidated for the IT organization. The IT
Value group recently changed its name to IT Business Management.




                                                        2
Information Technology Contract Payment Oversight                            CA-AR-11-001



actual losses incurred by the Postal Service. See Appendix B for our detailed analysis
of this topic.

We recommend the vice president, Supply Management, direct the manager,
Information Technology, Category Management Center, to:

1. Ensure that proper personnel have a contracting officer’s representatives (CORs)
   letter of designation that allows them to certify invoices for payment.

2. Require CORs to reconcile invoices to receiving documents prior to certification for
   payment.

Management’s Comments

Management agreed with the intent of the findings and recommendations; however,
they disagreed with the extrapolation of monetary impact. They stated that lack of a
COR designation did not result in improper invoice certification. Also, they stated that
their policy does not require that a COR be assigned to every contract and, in many
cases, an office could be designated to certify invoices. Management also disagreed
with our classification of the monetary impact and believed we should have classified
the costs as disbursements at risk due to employees not following proper internal
controls and processes. See Appendix F for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments partially responsive to the recommendations in the report; and finds that
management’s corrective actions will not resolve the issues identified in the report. We
will work with management through the recommendation resolution process to ensure
that the significant issues identified are thoroughly addressed.

With regard to recommendation 1, management stated a specified designated office
has the ability to certify invoices for payment. Regarding recommendation 2,
management stated they plan to communicate their payment process guidelines to
CORs and the specified designated office in the contract by February 2011.

Certification of invoices and the reconciliation of receiving documents are significant
internal controls in the purchasing process. As such, the Postal Service’s Supplying
Principles and Practices state that processing invoices is a responsibility assigned to
the CO. At the Postal Service, and within the federal acquisition community, that
responsibility can be delegated to a COR, with the caveat that they are adequately
trained, have expert knowledge of the applicable contract, and be specifically delegated
that responsibility under the oversight and instruction of the CO. Therefore,
management must ensure that a designated COR, not a specified designated office,
certifies invoices and reconciles receiving documents to invoices prior to certification. If



                                                    3
Information Technology Contract Payment Oversight                          CA-AR-11-001



a COR is not delegated, the CO is responsible for invoice certification and
reconciliation.

The Postal Service’s Supplying Principles and Practices state that a CO is responsible
for contract management, which includes ensuring receiving reports are received and
proper payments are made to the supplier. A CO must be a career employee in good
standing and must meet the qualifications for a particular level of experience, education,
and training. A CO may delegate certain duties and responsibilities to a COR through a
letter of designation. Such duties may include verifying invoices and certifying invoices
for payment. COs and CORs are responsible for the success of the contracting
process. A partnership between the two is essential to establishing and achieving the
objectives of the contract.

Our statistical results represent the projection of the dollar amount of invoices not
properly certified by either a CO or COR. Because the invoices did not contain the
required approvals, the amount is properly classified as unrecoverable unsupported
questioned costs.

Other Matters

Although policy required interest to be collected on advance payments for software
maintenance contracts, the Postal Service did not collect this interest during FYs 2008
and 2009. Postal Service officials stated that collecting interest on these contracts was
unreasonable because suppliers would not agree to include the clause in the contract. It
is also a common industry practice to pay these fees in advance. We agree that
collecting interest on these types of payments may not be common in the IT industry.

As a result of our audit, on August 2, 2010, the Postal Service issued MI
PM-610-2010-2, Advance Payments, which changed policies regarding advance
payments, including no longer requiring the Postal Service to collect interest on
advance payments for software maintenance contracts. This action resolves the issue
identified during our audit; therefore, we are not making any recommendations for this
finding.

The OIG considers the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                    4
Information Technology Contract Payment Oversight                       CA-AR-11-001




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Ross Philo
    Paula S. Garner
    Robert L. Oates III
    Charles L. McGann
    Deborah Judy
    Susan A. Witt
    Gerri Wallace
    Corporate Audit and Response Management




                                                    5
Information Technology Contract Payment Oversight                         CA-AR-11-001



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

COs are assigned to administer contracts and ensure that all contract terms are carried
out. COs are ultimately responsible for assuming the Postal Service has received goods
and services and been invoiced in the correct amount before paying the invoice. A CO
may delegate a portion of their responsibility to a COR through a letter of designation.
The letter defines the CORs duties and sets their authority limits. The letter of
delegation may include the following responsibilities:

      Furnishing the supplier directly with technical assistance and provide guidance in
       all aspects of the contract;

      Providing the CO with a copy of all change orders issued;

      Providing the CO written notification of any dispute that cannot be resolved
       between you and the supplier regarding contract performance;

      Keeping accurate records of all interim and final contract testing procedures
       outline in the Statement of Work;

      Keeping a daily log; and

      Verifying invoices upon receipt and certifying them for payment.

Postal Service policy allows for advance payment when upfront payment for the item or
service being purchased is considered a common trade practice (e.g., software
maintenance). In most cases, when the Postal Service issues advance payments, the
supplier must pay interest on the daily balance of un-liquidated advance payments at
the daily rate.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objective for this audit was to evaluate the adequacy of oversight for IT
contract payments. Specifically, we determined if COs issued letters to CORs detailing
their responsibilities and limitations and whether they properly certified invoices. We
also reviewed the invoice approval process to determine if the CORs reconciled
invoices to receiving documents before certifying the invoices for payment. Additionally,
we determined if the Postal Service collected interest on advance payments for
software maintenance contracts.

To accomplish our objectives, we reviewed Postal Service policies regarding
certification of invoices and advance payments. We discussed the policies with Postal
Service personnel including COs, CORs, and IT program and budget personnel. We



                                                    6
Information Technology Contract Payment Oversight                             CA-AR-11-001



identified the universe of FYs 2008 and 2009 purchase orders for IT retail and hardware
systems. From the universe, we statistically selected a sample of purchase orders and
associated invoices. For the sampled invoices, we obtained documentation from the CO
and, if applicable, the COR to determine if the COs issued proper COR letters and
whether the invoices were properly certified. We statistically projected the sample
results to the universe.

In addition, the Postal Service provided us with a list of all advance software
maintenance contracts for FYs 2008 and 2009.

We conducted this performance audit from September 2009 through November 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on September 28, 2010, and
included their comments where appropriate.

We assessed the reliability of the contract payment data by reviewing source invoices
and interviewing agency officials knowledgeable about the data. We determined that the
data were sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE

                                             Final
                         Report             Report       Monetary
   Report Title          Number               Date         Impact             Report Results
 Certification        CA-AR-10-006          9/30/10     $5.6 billion   The Postal Service did not
 Process for                                                           certify electronic payments
 Electronic                                                            and must improve
 Payments                                                              oversight to ensure that
                                                                       payments to contractors
                                                                       are properly certified and
                                                                       the agency has received
                                                                       goods and services before
                                                                       payment. Management
                                                                       generally agreed with our
                                                                       recommendations or
                                                                       agreed to take actions to
                                                                       resolve the issues
                                                                       identified. However,
                                                                       management did not agree



                                                    7
Information Technology Contract Payment Oversight                            CA-AR-11-001



                                                                      with the monetary impact
                                                                      reported.
 The Postal           CA-AR-09-002          2/18/09     $41,916,714   The Postal Service could
 Service’s                                                            improve their oversight to
 Certification                                                        ensure that non-mail freight
 Process for                                                          transportation invoices are
 Non-Mail                                                             properly certified and
 Freight                                                              goods and services are
 Transportation                                                       received. Management
 Invoices                                                             implemented our
                                                                      recommendation to
                                                                      develop and implement
                                                                      written procedures for the
                                                                      independent review of
                                                                      invoices to confirm the
                                                                      receipt of goods and
                                                                      services and to ensure
                                                                      accurate payment.




                                                    8
Information Technology Contract Payment Oversight                                              CA-AR-11-001



                                APPENDIX B: DETAILED ANALYSIS

Lack of COR Letters of Designation and Invoice Certification

We sampled 65 of the 654 IT retail and hardware purchases orders the Postal Service
entered into during FYs 2008 and 2009. For the 65 purchase orders, we sampled a total
of 255 invoices valued at $49,958,851 as shown in Appendix C.

According to “You’re a COR Now,”3 a CO is allowed to appoint a COR through a formal
letter of designation that defines the CORs duties and responsibilities, which includes
verifying invoices upon receipt and certifying invoices for payment. COR duties also
include performing and documenting the acceptance of delivered goods.4 CORs
generally have expert knowledge of the terms of the contract they are assigned.

We found $49,160,640 to be improperly certified due to personnel certifying invoices
without a letter of designation. We determined this occurred because:

       For most IT hardware purchase orders, the COs issued COR letters of
        designation to IT Technology Support personnel. However, IT Value personnel
        were actually certifying the invoices associated with the purchase orders without
        proper COR letters of designation from the COs.5 Supply Management personnel
        were aware this was occurring and had discussed it with IT Value personnel but
        they did not take steps to correct it as it was not seen as a problem.

       The COs stated that they did not appoint CORs for small, non-complex, and low-
        risk IT hardware purchase orders. Therefore, for 11 of the sample purchase
        orders,6 personnel without COR letters of designation were certifying the invoices
        associated with the purchase orders.

       For IT retail invoices, the COs issued COR letters of designation to Retail Service
        Equipment personnel. However, due to a misunderstanding of responsibilities, an
        operations specialist in the group who was not designated as a COR was
        certifying invoices.

It is important that either COs or properly trained CORs certify invoices to ensure that
the purchases comply with the terms and conditions of the contract. Individuals in these
roles generally have expert knowledge of the terms of the contract, which their
certification is based on.

3
  MI PM-610-2001-1, Contracting Officer's Representative Program, dated April 3, 2001, requires CORs to view the
“You’re a COR Now” video or read the “You’re a COR Now” pamphlet.
4
  Acceptance of delivered goods may be documented by an acceptance certificate, which may be present on an
inspection form, receiving report, shipping document or packing list.
5
  Although not designated as COR’s, most IT Value personnel certifying invoices for payment had received COR
training.
6
  For the 11 purchase orders, we reviewed 38 invoices.



                                                        9
Information Technology Contract Payment Oversight                                           CA-AR-11-001



Of further concern, employees certifying invoices were not always reconciling the
invoices back to receiving documents. Only nine of the 255 invoices sampled were
reconciled prior to certification for payment.7 According to “You’re a COR Now,” COR
duties include performing and documenting the acceptance of delivered goods.8 This is
critical to ensuring that contract terms and conditions are met.

The control environment surrounding the certification of IT invoices is weakened on
multiple fronts. Individuals are certifying invoices when they are not specifically
authorized by the CO to do so, do not have expert knowledge of contractual terms, have
not been trained in the duties of a COR, and generally are not reconciling invoices prior
to authorizing payment.

Based on our sample results, we projected that there was $192,692,060 in improperly
certified invoices. See Appendix E for details of our statistical projection.




7
  All nine invoices for purchase order number 1BCHSO-05-B3090 were properly reconciled.
8
  Acceptance of delivered goods may be documented by an acceptance certificate, which may be present on an
inspection form, receiving report, shipping document or packing list.



                                                      10
Information Technology Contract Payment Oversight                                                CA-AR-11-001



                        APPENDIX C: PURCHASE ORDERS REVIEWED

                                                Invoices            Dollars            Dollars
          No.     Purchase Order No.            Sampled            Sampled            Questioned
           1       1BITRT-08-B0001                 11                 $794,554                   $0
           2       102591-00-R1804                 259                    3,657                   0
           3       1BITRT-08-C0033                  2                   684,690            684,690
           4       1BITRT-08-C0016                  1                     8,705               8,705
           5       1BITRT-08-C0018                  1                    41,956             41,956
           6       1BITRT-08-C0035                  1                   875,520            875,520
           7       1BITRT-09-C0001                2510              22,466,599          22,466,599
           8       1BITRT-08-C0011                  1                    68,310             68,310
           9       1BITRT-07-B0010                  1                   198,720            198,720
          10       1BITHW-09-B0009                  6                     7,892               7,892
          11       1BITHW-08-B0001                  1                    13,960             13,960
          12       1BITHW-08-B0025                  1                    38,105             38,105
          13       475630-01-N0129                  1                     7,548               7,548
          14       1BITHW-08-B0015                  2                     5,800               5,800
          15      1BCHSO-05-B3090                   9                   190,024            190,024
          16       102591-02-Q0114                2511                   10,936             10,936
          17       1BITHW-07-C0048                  1                    24,960             24,960
          18       1BITHW-07-C0061                  8                   338,047            338,047
          19       1BITHW-07-C0087                  2                  (2,104)12            (2,104)
          20       1BITHW-07-C0103                  1                    16,556             16,556
          21       1BITHW-07-C0133                  1                   128,960            128,960
          22       1BITHW-07-C0136                  1                    30,564             30,564
          23       1BITHW-07-C0207                 12                   232,368            232,368
          24       1BITHW-08-C0017                  1                   262,311            262,311
          25       1BITHW-08-C0053                  2                    24,273             24,273
          26       1BITHW-08-C0069                  1                1,700,000           1,700,000
          27       1BITHW-08-C0074                  1                    10,617             10,617
          28       1BITHW-08-C0083                  1                    10,532             10,532
          29       1BITHW-08-C0117                  1                    12,666             12,666
          30       1BITHW-08-C0136                  1                    20,191             20,191
          31       1BITHW-08-C0150                  2                   513,580            513,580
          32       1BITHW-08-C0152                  2                   105,490            105,490
          33       1BITHW-08-C0167                  1                    70,815             70,815
          34       1BITHW-08-C0176                  1                    14,848             14,848
          35       1BITHW-08-C0191                  3                    31,218             31,218
          36       1BITHW-08-C0198                  1                    16,047             16,047

9
  We randomly sampled 25 of the 408 invoices associated with this purchase order.
10
   We randomly sampled 25 of the 39 invoices associated with this purchase order.
11
   We randomly sampled 25 of the 72,369 invoices associated with this purchase order.
12
   This purchase order was a negative amount because a refund was applied for a returned item.




                                                       11
Information Technology Contract Payment Oversight                             CA-AR-11-001



                                          Invoices        Dollars         Dollars
         No.   Purchase Order No.         Sampled        Sampled        Questioned
         37     1BITHW-08-C0201               1              $24,914         $24,914
         38     1BITHW-08-C0212               1                11,659         11,659
         39     1BITHW-08-C0216               1              795,173         795,173
         40     1BITHW-08-C0235               1                22,419         22,419
         41     1BITHW-08-C0240               1            1,858,648       1,858,648
         42     1BITHW-08-C0261               2              199,529         199,529
         43     1BITHW-08-C0267              17              871,854         871,854
         44     1BITHW-09-C0027               1                42,802         42,802
         45     1BITHW-09-C0037               1                12,000         12,000
         46     1BITHW-09-C0059               1                15,790         15,790
         47     1BITHW-09-C0070               3                45,763         45,763
         48     1BITHW-09-C0117               2            4,301,453       4,301,453
         49     1BITHW-09-C0121               2              397,903         397,903
         50     1BITHW-09-C0135               2            2,999,989       2,999,989
         51     1BITHW-09-C0138               2                24,273         24,273
         52     1BITHW-09-C0143               3            1,635,310       1,635,310
         53     1BITHW-09-C0144               2              175,294         175,294
         54     1BITHW-09-C0145               1                97,920         97,920
         55     1BITHW-09-C0148               1                11,968         11,968
         56      1BITTL-03-M5157             10            1,750,806       1,750,806
         57     1BITHW-08-C0223               1              248,764         248,764
         58     1BCHSO-04-F1756               1            4,374,327       4,374,327
         59     1BITHW-09-B0004               2              232,818         232,818
         60     1BITHW-09-B0016               1                   995             995
         61     1BITHW-07-B0022               5              244,464         244,464
         62     1BITHW-08-B0041               2                28,652         28,652
         63     1BITHW-08-B0012              11                 9,940          9,940
         64      266351-99-F0330             6                  4,699          4,699
         65     1BITHW-07-B0039              14              539,810         539,810
               TOTAL                        255          $49,958,851     $49,160,640




                                                    12
Information Technology Contract Payment Oversight                                              CA-AR-11-001



                                 APPENDIX D: MONETARY IMPACT

                  Finding                              Impact Category                         Amount

     Lack of Proper COR
     designation, training, and               Unrecoverable Unsupported
     failure to perform key duties            Questioned Costs13                            $192,692,060




13
  These costs are questioned because the invoices did not contain the required approvals prescribed by Postal
Service policy. These amounts are not necessarily losses incurred by the Postal Service.



                                                        13
Information Technology Contract Payment Oversight                                                  CA-AR-11-001



                               APPENDIX E: STATISTICAL RESULTS

Using the Postal Service's Enterprise Data Warehouse System, we identified 654
purchase orders during FYs 2008 and 2009 for IT retail and hardware. We randomly
sampled 65 of the purchase orders. For the 65 purchase orders, we reviewed a total of
255 invoices. We found 219 invoices (or 86 percent) valued at $49,160,640 were
improperly certified as shown in the table below.

                             Total Purchase                         Number of
                                 Orders                              Invoices                  Dollars
             Universe              654                                151,091               $592,647,270
             Sample                 65                                  255                   49,958,851
        Improperly Certified        63                                  219                   49,160,640

We performed a two-stage unrestricted variable appraisal14 of the sample results. We
determined at the one-sided 95 percent confidence interval, that $192,692,060 will be
claimed as unrecoverable unsupported questioned costs as shown in the table below.

                                                         One-Sided 95 Percent
                                                       Confidence Interval on the
                                                             Lower Bound
                     Lower Limit                                     $192,692,06015
                     Z-Value Used                                   1.644853626951
                                                         Two-Sided 95 Percent
                                                          Confidence Interval
                     Lower Limit                                         $49,598,168
                     Upper Limit                                       1,829,665,800
                     Precision Amount                                    890,033,816
                     Precision Percent                                       94.72%
                     Z-Value Used                                   1.959963984540




14
    A two-stage unrestricted variable appraisal is an appraisal of a form of a cluster sample in which a random sample
of primary units is taken and then random subsamples of secondary unit are taken from each primary unit.
15
   Since the precision percent at the 95 percent confidence interval is greater than the Office of Inspector General’s
acceptable rate of 20 percent, we are reporting the lower limit of the 90 percent confidence interval as a one-sided 95
percent confidence interval.



                                                          14
Information Technology Contract Payment Oversight          CA-AR-11-001



                       APPENDIX F: MANAGEMENT’S COMMENTS




                                                    15
Information Technology Contract Payment Oversight        CA-AR-11-001




                                                    16
